 Semiannual Report To
 The Congress




April 1, 2006 – September 30, 2006




 Office of
 Inspector General
 DEPARTMENT OF THE TREASURY
                                   HIGHLIGHTS IN BRIEF
During this semiannual reporting period, our Office of Audit issued 17 reports and other
products which identified, in total, $5.5 million in monetary benefits. Work by our Office of
Investigations resulted in 14 convictions (12 by plea agreement), 1 federal indictment, 1 federal
information, and 15 referrals accepted for prosecution. Investigative activities also resulted in
$183,500 in court-ordered fines, restitution, and civil settlements, as well as 10 personnel
actions. Some of our significant results for this period are described below:

•   We completed four audits related to Treasury’s anti-money laundering/terrorist financing and
    foreign sanctions programs. One audit found that the Office of the Comptroller of the
    Currency (OCC) took a questionable (non-public) enforcement action against Wells Fargo Bank,
    the nation’s fifth largest bank, when it found serious recurring Bank Secrecy Act (BSA)
    program deficiencies. Another audit found that the Financial Crimes Enforcement Network was
    slow in developing possible new leads for law enforcement through analysis of BSA data,
    devoting most of its analytical work to processing routine data requests. Audits of OCC and
    the Office of Thrift Supervision found that sampled examinations of financial institutions for
    compliance with Office of Foreign Assets Control requirements were not documented well
    enough to determine whether or not the examined institutions were in compliance.

•   Our fiscal year 2006 evaluation of Treasury’s information security program and practices
    disclosed deficiencies that, in the aggregate, constituted substantial noncompliance with the
    Federal Information Security Management Act of 2002. Deficiencies were noted in the areas
    of certification and accreditation, training, plans of actions and milestones, and incident
    response processing among others. We also reported several matters pertaining to
    Treasury’s national security systems. We found, however, that the Department was able,
    for the first time, to develop a systems inventory that is substantially complete and
    conforms to applicable requirements.

•   In August 2006, an individual pled guilty in federal court to a three-count information
    charging bank fraud, mail fraud, and money laundering from September to December 2005,
    in a scheme to defraud the Federal Emergency Management Agency (FEMA) of more than
    $100,000 in relief funds intended for victims of Hurricanes Katrina and Rita. In another
    case, Treasury OIG led the investigation of an individual for making a false statement on a
    FEMA application. The individual, a District of Columbia resident, falsely claimed his home
    was damaged by Hurricane Katrina and received three Treasury checks totaling $14,749. In
    June 2006, the individual pled guilty in federal court.

•   After BEP notified our office that a number of incomplete $100 notes had entered into
    commerce, OIG special agents, with the assistance of BEP investigators and the U.S. Secret
    Service, initiated an investigation which the Federal Bureau of Investigations (FBI) later
    joined. The investigation led to the arrest by OIG and FBI special agents of a BEP employee
    after the execution of a search warrant at his home recovered partially printed $100 notes
    stolen from BEP’s Eastern Currency Facility in Washington, D.C. On September 6, 2006,
    pursuant to a plea agreement, he pled guilty to one charge of possession of tools and
    materials for counterfeiting purposes and is awaiting sentencing.

Finally, we are pleased to report that the work of our office during fiscal year 2006 was
recognized with 5 Awards for Excellence by the President’s Council on Integrity and Efficiency
at an October 2006 ceremony.
A MESSAGE FROM THE INSPECTOR GENERAL

        I am pleased to present the Department of the Treasury (Treasury),
Office of Inspector General (OIG) Semiannual Report summarizing our
activities for the 6 month period from April 1, 2006, through
September 30, 2006.

       As evidenced by the descriptions on the Highlights In Brief page of
the report, we have been very productive and effective over the past 6
months. While the Treasury OIG is, by far, the smallest Cabinet-level
Inspector General’s office, my staff of approximately 65 auditors and 35
investigators continue to impress me with their productivity,
professionalism, and dedication.

        As we move forward into Fiscal Year 2007, I plan to continue to
utilize my limited audit and investigative resources in the most productive
ways possible. I intend to focus our discretionary audit resources in two
main areas. Our primary concentration will be on Treasury’s management
of major capital investments, where there exists a history of problem-
plagued and failed projects. We have repeatedly identified this as one of
the most serious management challenges facing the Department.
Additionally, Congress has also expressed serious concerns about
Treasury’s track record in executing major Information Technology
projects. It is my intention to increase our audit coverage of Treasury’s
capital investment projects, and perform audit work earlier in the
acquisition process, to ensure well-defined project requirements,
reasonable cost estimates, satisfactory project management, and a better
chance for success.

        I also intend to focus audit resources in the area of anti-money
laundering and terrorist financing/Bank Secrecy Act (BSA) enforcement.
Treasury faces many unique and difficult challenges in carrying out its
responsibilities under the BSA, USA Patriot Act, and U.S. foreign sanction
programs to prevent and detect money laundering and terrorist financing.
Given the criticality of this responsibility, I will continue to devote a
significant portion of our audit resources on oversight of the various
programs in the Office of Foreign Assets Control, Financial Crimes
Enforcement Network, Office of the Comptroller of Currency, and Office of
Thrift Supervision.
         Turning to our Office of Investigations, we are in the early stages of
a proactive improper payment initiative (IPI) which is aimed at identifying
and prosecuting those individuals who have fraudulently received Federal
benefit payments. My office has oversight of the Financial Management
Service which disburses most benefit payments for the federal
government. We are currently working jointly with five other Offices of
Inspector General combining our resources and sharing information to
better detect, and hopefully prevent, this type of fraudulent activity. The
initial results from this joint effort have been encouraging. I hope to be
able to report some significant progress regarding the IPI in my next Semi-
Annual Report.

      I very much appreciate the support my staff and I received from
former Secretary Snow and his senior staff. In particular, I believe the lines
of communication we have developed with Deputy Secretary Kimmitt,
Assistant Secretary for Management and Chief Financial Officer Pack, the
General Counsel’s Office, and a number of the Treasury Bureaus have
allowed the OIG to more effectively carry out its mission. I look forward to
developing a similar working relationship with Secretary Paulson and the
new members of his senior staff, as we seek to continue to identify and
prevent potential vulnerabilities and fraud in the Department’s programs,
promote effective program management, ensure sound financial
management, and improve information technology and related security.




                                  Harold Damelin
                                  Inspector General
                                      T ABLE O F C ONTENTS


Highlights in Brief

A Message From The Inspector General

Overview of the OIG and the Treasury..............................................................                1

        OIG Values ..........................................................................................    2
        About Treasury ....................................................................................      2

Treasury Management and Performance Challenges ...........................................                        5

Significant Audits and Evaluations ...................................................................           8

        Financial Management ...........................................................................          8
        Information Technology .........................................................................         10
        Programs and Operations .......................................................................          12

Significant Investigations ................................................................................      18

Other OIG Accomplishments and Activities .......................................................                 25

Statistical Summary .......................................................................................      31

        Summary of OIG Activity.......................................................................           31
        Significant Unimplemented Recommendations ..........................................                     33
        Summary of Instances Where Information Was Refused ............................                          35
        Listing of Audit and Evaluation Reports Issued .........................................                 35
        Audit Reports Issued with Questioned Costs ............................................                  37
        Audit Reports Issued with Recommendations that
           Funds be Put to Better Use ................................................................           37
        Previously Issued Audit Reports Pending Management Decisions
           (over Six Months) .............................................................................       37
        Significant Revised Management Decisions ..............................................                  38
        Significant Disagreed Management Decisions ...........................................                   38
        References to the Inspector General Act as Amended ...............................                       39

Acronyms .....................................................................................................   40
This Page Intentionally Left Blank
                   O VERVIEW OF OIG AND THE T REASURY

The Department of the Treasury’s (Treasury) Office of Inspector General (OIG) was established
pursuant to the 1988 amendment to the Inspector General Act of 1978, 5 United States Code
(U.S.C.) Appendix 3. OIG is headed by an Inspector General (IG) who is appointed by the
President of the United States, with the advice and consent of the United States Senate.
Serving with the IG in the immediate office is a Deputy Inspector General. OIG performs
independent and objective reviews of Treasury programs and operations, except for those of
the Internal Revenue Service (IRS), and keeps the Secretary of the Treasury and Congress fully
informed of problems, deficiencies, and the need for corrective action. The Treasury Inspector
General for Tax Administration (TIGTA) performs audit and investigative oversight related to
IRS.

OIG is organized into four divisions: (1) Office of Audit, (2) Office of Investigations, (3) Office
of Counsel, and (4) Office of Management.

       The Office of Audit performs and supervises audits, attestation engagements, and
       evaluations. The Assistant Inspector General for Audit has two deputies. One deputy is
       primarily responsible for performance audits, and the other deputy is primarily
       responsible for financial management and information technology audits. The Office of
       Audit staff are located in Washington, DC, and Boston, Massachusetts.

       The Office of Investigations performs investigations and conducts proactive initiatives
       that are aimed at detecting and preventing fraud, waste, and abuse in Treasury
       programs and operations. The Office of Investigations also manages the Treasury OIG
       Hotline System to facilitate the reporting of allegations involving the programs and
       activities under the auspices of the Department. The Assistant Inspector General for
       Investigations is responsible for the supervision and conduct of all investigations
       relating to the Department’s programs and operations and performs integrity oversight
       reviews within select Treasury bureaus. The Office of Investigations is located in
       Washington, DC.

       The Office of Counsel to the Inspector General (1) processes all Freedom of Information
       Act/Privacy Act requests and administrative appeals; (2) processes all discovery
       requests; (3) represents OIG in administrative Equal Employment Opportunity and Merit
       Systems Protection Board proceedings; (4) conducts ethics training, provides ethics
       advice, and ensures compliance with financial disclosure requirements; (5) reviews
       proposed legislation and regulations; (6) reviews and issues IG subpoenas; (7) reviews
       and responds to all Giglio requests for information about Treasury personnel who may
       testify in trials; and (8) provides advice on procurement, personnel, and other
       management matters and on pending audits and investigations.

       The Office of Management provides a range of services designed to maintain the OIG
       administrative infrastructure. These services include: asset management; budget
       formulation and execution; financial management; information technology; and office-
       wide policy preparation, planning, emergency preparedness, and reporting for OIG. The
       Assistant Inspector General for Management is in charge of these functions.


              Treasury Office of Inspector General Semiannual Report – September 2006                 1
                O VERVIEW OF OIG AND THE T REASURY

     As of September 30, 2006, OIG had 115 full-time staff onboard. OIG’s fiscal year
     2006 appropriation was $16.8 million.

OIG Values
     The values of OIG include producing high-quality products that are accurate, timely,
     relevant, and responsive to the needs of decision makers. OIG strives to ensure
     integrity, independence, objectivity, proficiency, and due care in performing its work.
     OIG promotes teamwork and open communication among its organizational
     components and encourages and rewards its workforce for innovation, creativity,
     dedication, and productivity. Finally, OIG fosters an environment of respect, equal
     opportunity, and diversity among its workforce.

About Treasury
     The mission of Treasury is to promote the conditions for prosperity and stability in the
     United States and encourage prosperity and stability in the rest of the world. Organized
     into bureaus and offices, Treasury encompasses a wide range of programmatic and
     operational activities. Currently, Treasury has approximately 112,500 full-time
     equivalent (FTE) staff. Of this workforce, IRS has approximately 96,700 FTE staff and
     the other Treasury bureaus and offices have approximately 15,800 FTE staff.

Treasury Bureaus

     Alcohol and Tobacco Tax and Trade Bureau (TTB) is responsible for enforcing and
     administering laws covering the production, use, and distribution of alcohol and
     tobacco products. It collects alcohol, tobacco, firearms, and ammunition excise taxes
     totaling approximately $17 billion annually.

     Bureau of Engraving and Printing (BEP) designs and manufactures U.S. currency,
     securities, and other official certificates and awards.

     Bureau of the Public Debt (BPD) borrows the money needed to operate the federal
     government. It administers the public debt by issuing and servicing U.S. Treasury
     marketable, savings, and special securities.

     Financial Crimes Enforcement Network (FinCEN) supports law enforcement
     investigative efforts and fosters interagency and global cooperation against domestic
     and international financial crimes. It also provides U.S. policy makers with strategic
     analyses of domestic and worldwide trends and patterns.

     Financial Management Service (FMS) receives and disburses all public monies,
     maintains government accounts, and prepares daily and monthly reports on the status
     of U.S. government finances.


2          Treasury Office of Inspector General Semiannual Report – September 2006
                   O VERVIEW OF OIG AND THE T REASURY

      Internal Revenue Service (IRS) is the nation's tax collection agency and administers the
      Internal Revenue Code.

      U.S. Mint (Mint) designs and manufactures domestic bullion, and foreign coins, as well
      as commemorative medals and other numismatic items. The Mint also distributes U.S.
      coins to the Federal Reserve Banks and maintains physical custody and protection of
      the nation's gold and silver assets.

      Office of the Comptroller of the Currency (OCC) charters, regulates, and supervises
      national banks to ensure a safe, sound, and competitive banking system that supports
      the citizens, communities, and economy of the United States.

      Office of Thrift Supervision (OTS) regulates all federal and many state-chartered thrift
      institutions, which include savings banks and savings and loan associations.

Treasury Offices

      Departmental Offices (DO) formulates policy and manages Treasury operations.

      Office of Terrorism and Financial Intelligence (TFI) marshals Treasury’s intelligence and
      enforcement functions to safeguard the financial system against illicit use and to
      combat rogue nations, terrorist facilitators, money launderers, drug kingpins, and other
      national security threats.

      •   TFI is headed by an Under Secretary and includes two major components: the
          Office of Terrorist Financing and Financial Crime (TFFC), responsible for TFI's
          enforcement functions, and the Office of Intelligence and Analysis (OIA),
          responsible for TFI's intelligence functions. An Assistant Secretary oversees each of
          these offices. TFFC is responsible for integrating FinCEN, the Office of Foreign
          Assets Control (OFAC), and the Treasury Executive Office of Asset Forfeiture
          (TEOAF). TFFC also works in close partnership with IRS Criminal Investigation
          (IRS-CI) to enforce laws against terrorist financing and money laundering, including
          the Bank Secrecy Act (BSA). OIA supports the formulation of policy and execution
          of Treasury authorities by providing (1) analysis and intelligence production on
          financial and other support networks for terrorist groups, proliferators, and other
          key national security threats, and (2) intelligence support on the full range of
          economic, political, and security issues. OIA is a member of the United States
          Intelligence Community.

      •   OFAC administers and enforces economic and trade sanctions based on U.S. foreign
          policy and national security goals against targeted foreign countries, terrorists,
          international narcotics traffickers, and those engaged in activities related to the
          proliferation of weapons of mass destruction. OFAC acts under presidential wartime
          and national emergency powers, as well as authority granted by specific legislation,
          to impose controls on transactions and freeze foreign assets under U.S. jurisdiction.


            Treasury Office of Inspector General Semiannual Report – September 2006              3
               O VERVIEW OF OIG AND THE T REASURY

    •   TEOAF administers the Treasury Forfeiture Fund (TFF). TFF is the receipt account
        for the deposit of nontax forfeitures made by IRS-CI and the Department of
        Homeland Security, including U.S. Immigration and Customs Enforcement, U.S.
        Customs and Border Protection, U.S. Secret Service, and U.S. Coast Guard.
        Funding for participating law enforcement agencies is provided through TFF to
        enhance their capabilities to conduct successful investigations and forfeitures. TFF’s
        mission is to affirmatively influence the consistent and strategic use of asset
        forfeiture by participating agencies to disrupt and dismantle criminal enterprises.

    Office of International Affairs advises on and assists in the formulation and execution
    of U.S. international economic and financial policy. Responsibilities of the Office of
    International Affairs include developing policies and guidance in the areas of
    international financial, economic, monetary, trade, investment, bilateral aid,
    environment, debt, development, and energy programs, including U.S. participation in
    international financial institutions.

    Exchange Stabilization Fund (ESF) is used to purchase or sell foreign currencies, hold
    U.S. foreign exchange and Special Drawing Rights assets, and provide financing to
    foreign governments. All ESF operations require the explicit authorization of the
    Secretary of the Treasury.

    Community Development Financial Institutions Fund (CDFI Fund) expands the
    availability of credit, investment capital, and financial services in distressed urban and
    rural communities.

    Federal Financing Bank (FFB) provides federal and federally assisted borrowing,
    primarily to finance direct agency activities such as construction of federal buildings by
    the General Services Administration (GSA) and meeting the financing requirements of
    the U.S. Postal Service.

    Office of DC Pensions makes federal benefit payments associated with the District of
    Columbia (DC) Retirement Programs for police officers, firefighters, teachers, and
    judges.

    Air Transportation Stabilization Board was authorized to issue federal credit instruments
    (loan guarantees) to assist air carriers that suffered losses as a result of the terrorist
    attacks on the United States that occurred on September 11, 2001. This authority
    expired September 30, 2004. As of September 30, 2006, approximately $18 million in
    loan guarantees were outstanding.




4         Treasury Office of Inspector General Semiannual Report – September 2006
    T REASURY M ANAGEMENT AND P ERFORMANCE C HALLENGES

In accordance with the Reports Consolidation Act of 2000, the IG annually provides the
Secretary of the Treasury with OIG’s perspective on the most serious management and
performance challenges facing the Department. Among other things, the Secretary must
include these challenges in the Department’s annual Performance and Accountability Report. In
October 2005, the IG reported five challenges to former Secretary Snow that we believe
seriously impeded the Department’s ability to conduct its program responsibilities and ensure
the integrity of its operations. These challenges are: (1) Corporate Management,
(2) Management of Capital Investments, (3) Information Security, (4) Linking Resources to
Results, and (5) Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act
Enforcement. In a memorandum dated October 16, 2006, the IG reported to Secretary Paulson
that while some progress on each of these five challenges has been made, they continue to
represent significant risks to the Department.

The five management and performance challenges are summarized below:

•   Corporate Management This is an overarching management challenge. Treasury needs to
    provide effective corporate leadership in order to resolve serious bureau and program office
    deficiencies that adversely impact the performance of Treasury as a whole. In particular,
    Treasury needs to assert strong leadership and supervision over the IRS to resolve the
    longstanding material weaknesses and system deficiencies that hamper the timely and
    reliable information necessary to effectively manage IRS operations. In addition, while
    progress has been made, the Department has not fully implemented a corporate-level
    control structure to ensure that capital investments are properly managed, information
    about government operations and citizens is adequately secured, and financial resources
    used by Treasury can be linked to its operational results. The increasing emphasis on
    agency-wide accountability envisioned in the management reform legislation of the past
    decade and the President’s Management Agenda, has underscored the need for effective
    corporate management at Treasury. With nine bureaus and many program offices, Treasury
    is a highly decentralized organization. As such, Treasury management should ensure
    consistency, cohesiveness, and economy among all bureaus and program offices in
    achieving Treasury’s goals and objectives.

    This past year, we noted that the Department’s senior leadership has asserted more direct
    and substantive involvement in developing and implementing Treasury-wide polices and
    initiatives across a number of fronts. Also, the Deputy Secretary recently issued a
    memorandum requiring that internal control programs (programs to ensure accountability
    and promote effective management and stewardship) be included in all fiscal year 2007
    senior leadership performance plans. In the future, this type of direct involvement by senior
    leadership needs to be maintained so that progress continues.

•   Management of Capital Investments Treasury needs to better manage large acquisitions of
    mission-critical systems and other capital investments. In the past, serious problems have
    been identified with the Treasury Communications Enterprise (TCE) procurement,
    Treasury’s HR Connect system, and the Treasury and Annex Repair and Restoration
    project. This year, we note continuing issues with TCE and new problems have been
    brought to light with BSA Direct, and the web-based Electronic Fraud Detection System

             Treasury Office of Inspector General Semiannual Report – September 2006           5
    T REASURY M ANAGEMENT AND P ERFORMANCE C HALLENGES

    (Web EFDS). Specifically, as discussed in our prior semiannual report, we found that the
    TCE procurement, estimated to cost $1 billion over its useful life, was poorly planned,
    executed, and documented. Treasury amended and reopened the TCE solicitation in
    October 2005, but has yet to award the TCE contract. In July 2006, after nearly 2 years in
    development and $15 million spent, FinCEN terminated its contract for the storage and
    retrieval component of BSA Direct after significant concerns were raised about schedule
    delays and project management. IRS had similar problems with Web EFDS, a system
    costing more than $20 million intended to prevent fraudulent refunds. In April 2006, after
    a significant delay, IRS stopped all development activities for Web EFDS. IRS also was
    unable to use EFDS to prevent fraudulent refunds during processing year 2006. The TIGTA
    reported that without Web EFDS, more than $300 million in fraudulent refunds may have
    been allowed.

    The Deputy Secretary recently emphasized the need to better manage information
    technology capital investments to the heads of Treasury bureaus, noting that this is a
    responsibility of all senior management and not just that of the Chief Information Officer.
    Involvement and accountability at the top is a critical factor to ensure the successful
    implementation of systems.

•   Information Security Despite some notable accomplishments, the Department needs to
    improve its information security program and practices to achieve compliance with the
    Federal Information Security Management Act of 2002 (FISMA) and Office of Management
    and Budget (OMB) requirements. In the past, we reported that Treasury’s systems
    inventory was not accurate, complete, or consistently reported. During the past year, the
    Department overcame this weakness in its security program by providing direction to the
    bureaus in developing a Department-wide inventory of information systems. Although the
    Department still needs to implement additional actions to further improve the system
    inventory, we believe the inventory is substantially complete and generally conforms to
    applicable requirements. Nevertheless, we reported that information security deficiencies at
    Treasury, in the aggregate, constitute substantial noncompliance with FISMA.
    Improvements are needed in a number of areas such as certification and accreditation,
    tracking corrective actions, and incident response. Also, during 2006 OMB required
    agencies to perform specific actions to protect certain personally identifiable information.
    Treasury faces significant challenges to meet these requirements. In this regard, the
    Department needs to ensure that security controls pertaining to personally identifiable
    information are addressed Treasury-wide. In a July 2006 memorandum to Treasury
    bureaus, the Department provided implementation guidance and required bureaus to
    identify their specific actions taken and planned, including dates, to address weaknesses in
    security controls pertaining to personally identifiable information.

•   Linking Resources to Results Because the Department has not fully developed and
    incorporated managerial cost accounting (MCA) into its business activities, the Department
    cannot adequately link financial resources to operating results. This inhibits comprehensive
    program performance reporting and meaningful cost benefit analyses of the Department’s
    programs and operations. MCA involves the accumulation and analysis of financial and
    non-financial data, resulting in the allocation of costs to organizational pursuits such as

6            Treasury Office of Inspector General Semiannual Report – September 2006
    T REASURY M ANAGEMENT AND P ERFORMANCE C HALLENGES

    performance goals, programs, activities, and outputs, and should be a fundamental part of
    a financial/performance management system. In response to a critical Government
    Accountability Office report on MCA at Treasury, the Department developed a high-level
    MCA implementation plan. This plan focuses on (1) clarifying and reaffirming the
    Department’s MCA policy for all bureaus; (2) identifying MCA needs across the
    Department; (3) ensuring MCA needs are linked to the Department’s strategic plan, budget,
    and performance measures; (4) identifying gaps between Department and bureau needs
    and existing MCA capabilities; and (5) developing plans to eliminate these gaps. However,
    none of the specific action items in the plan have been completed and target dates for
    certain actions have been missed.

•   Anti-Money Laundering and Terrorist Financing/Bank Secrecy Act Enforcement Treasury
    faces unique challenges in carrying out its responsibilities under the Bank Secrecy Act
    (BSA) and USA Patriot Act to prevent and detect money laundering and terrorist financing.
    To effectively prevent and detect financial crimes and terrorist financing it is necessary to
    have: (1) strong control environments at financial institutions that ensure that business is
    conducted with reputable parties, and large currency transactions and suspicious activities
    are properly and timely reported to Treasury; (2) strong federal and state regulatory
    agencies that examine and enforce BSA and USA Patriot Act requirements at financial
    institutions; and (3) strong analytical capacity to identify and refer to law enforcement,
    leads provided through reports filed by financial institutions. While FinCEN is the Treasury
    bureau responsible for administering BSA, it relies on other Treasury and non-Treasury
    agencies to enforce compliance with the Act’s requirements. OFAC, the Treasury office
    responsible for administering U.S. foreign sanction programs, also relies on other Treasury
    and non-Treasury agencies to ensure compliance with OFAC requirements. Past audits and
    Congressional hearings, however, have surfaced serious regulatory gaps in the detection of
    and/or timely enforcement action against financial institutions for BSA and related
    violations. In an attempt to improve compliance and address some of these gaps, Treasury
    created TFI through which FinCEN and OFAC now report. In addition, FinCEN, beginning in
    2004, (1) created a compliance office to improve BSA oversight and coordination with
    financial institution regulators, and (2) entered into memoranda of understanding (MOUs)
    with the federal banking regulators, IRS, and most states to enhance communication and
    coordination.

    During this semiannual period, we completed audits at FinCEN, OCC, and OTS related to
    this management challenge, which are discussed in the next section of this report. Given
    the criticality of this management challenge to the Department’s mission, we will continue
    to devote a significant portion of our audit resources to this management challenge.




             Treasury Office of Inspector General Semiannual Report – September 2006            7
                            S IGNIFICANT A UDITS AND E VALUATIONS

FINANCIAL MANAGEMENT

Financial Audits

The Chief Financial Officers (CFO) Act, as amended by the Government Management
Reform Act of 1994 (GMRA), requires annual financial statement audits of Treasury and
Office of Management and Budget (OMB)-designated entities. In this regard, OMB has
designated IRS for annual financial statement audits. The financial statements of certain
other Treasury component entities are audited pursuant to other requirements, or because
of their materiality to Treasury’s consolidated financial statements. The following table
shows audit results for fiscal years 2005 and 2004.


                                       Treasury Audited Financial Statements and Related Audits

                                                    Fiscal Year 2005 Audit Results                       Fiscal Year 2004 Audit Results
                                                                                  Other                                                Other
                                                               Material                                          Material
Entity                                           Opinion                        Reportable      Opinion                              Reportable
                                                               Weakness                                          Weakness
                                                                                Conditions                                           Conditions
GMRA/CFO Act Requirements
  Treasury Department                              UQ               1                1              UQ               1                   1
  IRS (A)                                          UQ               4                2              UQ               4                   2
Other Required Audits
  BEP                                              UQ               0                1              UQ               0                   0

    CDFI Fund                                      UQ               0                0              UQ               0                   0

    Office of DC Pensions                          UQ               0                0              UQ               0                   0

                                                   UQ               0                0              UQ               0                   0
    ESF

    FFB                                            UQ               0                0              UQ               1                   0

 OCC                                           UQ                   0                0              UQ               0                   1
 OTS                                           UQ                   0                0              UQ               0                   0
 TFF                                           UQ                   1                1              UQ               0                   1
 Mint
    Financial Statements                       (B)                 (B)              (B)             UQ               0                   0
    Custodial Gold and
                                               UQ                   0                0              UQ               0                   0
       Silver Reserves
Material to Treasury Department Financial Statements
 BPD
    Schedule of Federal Debt (A)               UQ                   0                0              UQ               0                   0
      Government Trust Funds                       UQ               0                0              UQ               0                   1
    FMS
      Treasury Managed Accounts                    UQ               0                0              UQ               0                   0
    Operating Cash of the Federal
                                                   UQ               0                1              UQ               0                   1
      Government
Other
      FinCEN                                       UQ               1                0             N/A              N/A                 N/A
UQ     Unqualified opinion
N/A    Bureau was not audited before fiscal year 2005
(A)    Audited by the U.S. Government Accountability Office.
(B)    On June 28, 2006, we issued the independent public accountant’s (IPA) audit report on the Mint’s fiscal year 2005 financial statements. In
       July 2006, we recalled the report at the request of the Mint Acting Director because he wanted to change his letter that accompanied the
       financial statements. That request and certain other circumstances necessitated the IPA to perform additional audit work. As of
       September 30, 2006, the audit was still in progress.




8                   Treasury Office of Inspector General Semiannual Report – September 2006
                      S IGNIFICANT A UDITS AND E VALUATIONS

Audits of the fiscal year 2006 financial statements or schedules of the Department and
component reporting entities were in progress at the end of this semiannual reporting
period.

Federal Financial Management Improvement Act (FFMIA) of 1996

The following instances of FFMIA noncompliance were reported in connection with the
audit of the Department’s fiscal year 2005 consolidated financial statements. All instances
relate to IRS. The current status of these FFMIA noncompliances, including progress in
implementing remediation plans, will be evaluated as part of the audit of Treasury’s fiscal
year 2006 financial statements.

                                                                                            Fiscal Year
                                                                                          First Reported       Type of
Entity                                     Condition
                                                                                            for FFMIA       Noncompliance
                                                                                             Purposes
         Financial management systems do not provide timely and reliable
         information for financial reporting and preparation of financial statements.
                                                                                                            Federal Financial
         IRS had to rely extensively on resource-intensive compensating procedures
                                                                                                              Management
IRS      to generate reliable financial statements. IRS also lacks a subsidiary ledger        1997
                                                                                                               Systems
         for its unpaid assessments and lacks an effective audit trail from its general
                                                                                                             Requirements
         ledger back to subsidiary detailed records and transaction source
         documents for material balances such as tax revenues and tax refunds.
         Deficiencies were identified in information security controls, resulting in                        Federal Financial
         increased risk of unauthorized individuals being allowed to access, alter, or                        Management
IRS                                                                                           1997             Systems
         abuse proprietary IRS programs and electronic data and taxpayer
         information.                                                                                        Requirements

         Material weaknesses were identified related to controls over unpaid tax                           Federal Accounting
IRS                                                                                           1997             Standards
         assessments and tax revenue and refunds.
         Financial management system cannot routinely accumulate and report the                            Federal Accounting
IRS                                                                                           1998
         full costs of its activities.                                                                         Standards
         General ledger system is not supported by adequate audit trails and is not
                                                                                                           Standard General
IRS      integrated with its supporting records for material balances such as tax             1997
                                                                                                                Ledger
         revenues and tax refunds.


Attestation Engagements

The following engagements were completed in support of the audit of Treasury’s fiscal
year 2006 consolidated financial statements. These engagements also support the financial
statement audits of certain other federal agencies.

BPD Controls over the Processing of Transactions for Other Agencies

An IPA, under our supervision, examined the general computer and accounting controls
related to certain services provided by BPD’s Administrative Resource Center to various
federal agencies (customer agencies). The IPA found that (1) BPD’s description of controls
for these activities fairly presented, in all material respects, the controls that had been
placed in operation as of June 30, 2006, (2) the controls were suitably designed, and
(3) the controls tested by the IPA were effective during the period July 1, 2005, to

                Treasury Office of Inspector General Semiannual Report – September 2006                                         9
                     S IGNIFICANT A UDITS AND E VALUATIONS

June 30, 2006. The IPA noted no instances of reportable noncompliance with laws and
regulations tested. (OIG-06-035)

An IPA, under our supervision, performed examinations that covered the general computer
and trust fund management processing controls related to BPD’s transactions processing
of investment accounts of various federal and state government agencies (program
entities) and the general computer and investment/redemption processing controls related
to the BPD’s transactions processing of investment accounts for various federal
government agencies (fund agencies). The IPA found that (1) BPD’s description of these
controls fairly presented, in all material respects, the controls that had been placed in
operation as of July 31, 2006, (2) the controls were suitably designed, and (3) the controls
tested by the IPA were effective during the period August 1, 2005, to July 31, 2006. The
IPA noted no instances of reportable non-compliance with the laws and regulations tested.
(OIG-06-038 and OIG-06-039)



INFORMATION TECHNOLOGY

Evaluation of Treasury’s Federal Information Security Management Act
Implementation for 2006

    Despite notable progress, TreasuryThe Federal Information Security Management Act of
                                      2002 (FISMA) requires an annual independent
    has deficiencies that, in the aggregate,
                                      evaluation of Treasury’s information security program
    constitute substantial noncompliance
    with FISMA.                       and practices. To meet FISMA requirements, we
                                      contracted with KPMG LLP, an independent certified
public accounting firm, to perform the FISMA evaluation of Treasury’s unclassified
systems, except for those of the IRS. TIGTA performed the FISMA evaluation for the IRS
systems. OIG auditors performed the FISMA evaluation of Treasury’s national security
systems.

Despite notable progress, Treasury has deficiencies that, in the aggregate, constitute
substantial noncompliance with FISMA. The most important of these deficiencies are:

•     Non-IRS bureaus and offices within Treasury have significant deficiencies in their
      information security program and practices. KPMG LLP reported concerns in the
      following areas at various bureaus: certification and accreditation, training, plans of
      actions and milestones, system interfaces, security self-assessments, system
      categorization, configuration management process, and incident response process.
•     IRS also continues to have shortcomings in its information security program and
      practices. TIGTA reported significant deficiencies in the following areas: continuous
      monitoring of systems, incident reporting procedures, and training employees with key
      security responsibilities.
•     We reported several matters pertaining to national security systems.


10              Treasury Office of Inspector General Semiannual Report – September 2006
                S IGNIFICANT A UDITS AND E VALUATIONS

We also identified areas where Treasury improved its information security program and
practices. Most notably, Treasury now has complete and properly categorized inventories
of its national security systems. We also generally agree with the Office of the Chief
Information Officer on the total number of Treasury systems. In addition, we noted in our
FISMA evaluation report that TIGTA reported that IRS has made steady progress in
complying with FISMA requirements. (OIG-CA-06-004, OIG-CA-06-005, and
OIG-CA-06-008)

Effective Security Controls Needed to Mitigate Critical Vulnerabilities in OCC’s
Networked Information Systems

In support of FISMA, we completed an audit of            We determined that several high-risk
network and system security at OCC to check for          vulnerabilities may expose OCC’s
vulnerabilities in OCC’s network communication           network and systems to unauthorized
services, operating systems, routers, servers, and       access and exploitation.
applications. OCC’s network and systems are
integral parts of its mission support structure. An unauthorized attack or system intrusion
on OCC’s network and computer systems could be detrimental to its mission.

We determined that several high-risk security vulnerabilities may expose OCC’s network
and systems to unauthorized access and exploitation. In addition, we provided
recommendations to address those vulnerabilities. Because of the sensitivity of these
vulnerabilities and recommendations, we designated the report “limited official use.”

OCC management concurred with our recommendations. Where possible, device or
software specific vulnerabilities cited in the report were corrected. In other cases, OCC
management provided plans for corrective actions to mitigate the vulnerabilities.
(OIG-06-040)

OCC’s Disaster Recovery Exercises Were Successful but Certain Procedures Need
to be Improved

                                     In 2005, OCC hired a contractor to provide disaster
 Although OCC successfully met the
                                     recovery services for its information systems. OCC is
 primary objectives for the two DREs,
                                     in the initial phase of developing its disaster recovery
 we found that improved procedures
                                     capability with its contractor, which provides
 are needed to restore applications.
                                     recovery facilities, hardware, software, services, and
technical personnel for OCC recovery exercises. During 2006, we observed two disaster
recovery exercises (DREs) at two different locations.

Although OCC successfully met the primary objectives for the two DREs, we found that
improved procedures are needed to restore applications. OCC concurred with our
recommendation to ensure that the procedures for restoring applications are sufficient, and
has taken or planned corrective action. Because of the sensitivity of the finding and



            Treasury Office of Inspector General Semiannual Report – September 2006         11
                S IGNIFICANT A UDITS AND E VALUATIONS

recommendation, we designated our reports on the DREs “limited official use.”
(OIG-06-041 and OIG-06-042)

Security Testing of Networked Systems

During the period, OIG acquired software tools and its information technology audit staff
obtained training to perform security tests of networked systems. To pilot the use of these
tools, we performed tests of OIG’s network noting certain weaknesses. Those weaknesses
are being corrected or mitigated. We plan to perform similar tests of networked systems at
selected Treasury bureaus in the future.



PROGRAMS AND OPERATIONS

OCC Did Not Take Formal Enforcement Action Against Wells Fargo Bank for
Significant Bank Secrecy Act Deficiencies

 In 2005, OCC took enforcement       OCC’s examiners found numerous and recurring
 action against Wells but instead of deficiencies in Wells Fargo Bank’s (Wells) BSA
 issuing a cease and desist order, itcompliance program from 1999 through 2004.
 issued an informal, nonpublic       Among the deficiencies identified were (1) weak
 action.… We believe OCC’s failure tointernal controls over the program, (2) inadequate
 take formal enforcement action      independent testing of business lines, (3) lack of BSA
 against Wells sent the wrong messageoversight, and (4) failure to file suspicious activity
 to the banking industry about OCC’s reports (SAR) in accordance with regulations and
 resolve to ensure that banks comply program requirements. Federal law (12 U.S.C. 1818)
 with BSA.                           requires financial institution regulators, such as OCC,
                                     that identify violations in BSA programs to take
formal enforcement action by issuing the institution a public cease and desist order. In
2005, OCC took enforcement action against Wells but instead of issuing a cease and
desist order, OCC issued an informal, nonpublic action that addressed BSA deficiencies as
safety and soundness weaknesses at the bank. This action required the bank to submit,
and get approved, a plan for improvement.

OCC senior management did not disagree with the examiners’ findings that the bank had
BSA program deficiencies, but believed that the deficiencies did not rise to the level of a
program violation. They also believed that examiners’ communications with the bank may
have left an unclear message about the seriousness of the problems found. However, we
found that examination reports provided to Wells clearly documented significant
weaknesses and deficiencies in Wells’s BSA program and concluded that OCC should have
acted more quickly and forcefully to require Wells to strengthen its BSA compliance. We
believe that OCC’s failure to take formal enforcement action against Wells sent the wrong
message to the banking industry about OCC’s resolve to ensure that banks comply with
BSA.


12          Treasury Office of Inspector General Semiannual Report – September 2006
                 S IGNIFICANT A UDITS AND E VALUATIONS

We also found that OCC did not follow its usual practice when determining what
enforcement action to take. OCC guidelines require that the planned enforcement action be
presented to the Washington Supervision Review Committee (WSRC), a headquarters
committee consisting of selected senior officials with a cross-section of OCC knowledge
and expertise. However, WSRC input was not sought and WSRC was effectively removed
from the customary enforcement process.

In addition, OCC did not keep FinCEN fully informed      While OCC advised FinCEN early on
of the ongoing enforcement action, in accordance         that it was considering a cease and
with a September 2004 MOU between OCC and                desist order against Wells, it did not
FinCEN. Under the MOU, OCC is to promptly notify         inform FinCEN that it changed
FinCEN when significant BSA violations are found at      course to issue the informal action
an institution. While OCC advised FinCEN early on        until after that action was taken.
that it was considering a cease and desist order
against Wells, it did not inform FinCEN that it changed course to issue the informal action
until after that action was taken. As a result, FinCEN was not afforded the opportunity to
timely review the findings or participate in the enforcement process.

We also reported that since the Wells enforcement action, OCC has renewed its emphasis
on Bank Secrecy Act/Anti-Money Laundering (BSA/AML) compliance by national banks. In
November 2005, the Comptroller of the Currency announced his plans to enhance OCC’s
supervision of the bank compliance programs. These initiatives are designed to strengthen
OCC’s BSA program examinations, enhance resources and expertise devoted to BSA
supervision, and provide clear expectations about OCC’s BSA/AML supervision to the
industry.

With regard to Wells, we recommended that OCC closely monitor Wells’s compliance with
the improvement plan, take prompt enforcement action should the bank fail to comply, and
keep FinCEN fully informed of the bank’s progress in improving compliance. We also
recommended specific actions OCC should take to improve its handling of bank
noncompliance with BSA in the future. These actions include obtaining WSRC input before
taking enforcement action and documenting the WSRC deliberation and basis for the
enforcement action taken. OCC concurred with our recommendations. (OIG-06-034)

FinCEN Took Steps to Better Analyze BSA Data But Challenges Remain

 …we reviewed FinCEN’s analytic           The USA Patriot Act requires FinCEN to furnish
 data for fiscal years 2003 through the   research, analytical, and informational services to
 first quarter of 2005 and found that     financial institutions and appropriate law enforcement
 FinCEN had made limited progress         authorities to fight terrorism, organized crime, and
 in increasing its complex data mining    money laundering. In this regard, an objective in
 and analysis (i.e., proactive case       FinCEN’s fiscal years 2006-8 strategic plan was to
 work).                                   adjust its support of law enforcement investigations
                                          by performing complex data mining and analysis.



            Treasury Office of Inspector General Semiannual Report – September 2006           13
               S IGNIFICANT A UDITS AND E VALUATIONS

FinCEN planned to increase its analytic products while reducing time spent in routine data
retrieval. This strategy was designed to shift FinCEN’s effort from routine data retrieval
(reactive cases) to complex data mining (proactive cases).

We conducted an audit to determine the extent to which FinCEN performed complex
analyses of BSA and other data intended to provide law enforcement with new leads or
clues regarding individuals, entities, and organizations engaging in terrorist acts or money
laundering. We found FinCEN has taken steps to increase its use of analytic tools and
methods for identifying trends and patterns in BSA data. However, we reviewed FinCEN’s
analytic data for fiscal years 2003 through the first quarter of 2005 and found that FinCEN
had made limited progress in increasing its complex data mining and analysis (i.e.,
proactive case work). Proactive case work increased during this period, from 6 percent of
FinCEN’s analytical case work in 2003 to 10 percent in 2005. Filing law enforcement
requests for specific information, known as reactive case work, continued to be FinCEN’s
focus. We found that FinCEN’s effort to conduct more complex analysis was hindered
during 2004 and 2005 when it released a number of contract employees who did not meet
upgraded FinCEN security clearance requirements. These contract employees had been
handling about a third of FinCEN’s reactive case work and, upon release, this work was
reassigned to FinCEN’s analysts.

We also found that FinCEN’s database to track and report the number of investigative
cases, subjects, and strategic analytic products was not accurate or reliable. The database
did not always contain information about the timeliness of work or resources used. Data
problems resulted from a combination of system weaknesses that made it difficult to
develop summary data, and data recording errors that occurred when analysts did not
record data in accordance with standard operating procedures. FinCEN also made changes
in how data were categorized from year to year.

Finally, we found that certain internal controls over BSA and law enforcement data were
weak and could allow these data to be compromised. First, FinCEN had yet to schedule on-
site security inspections at a number of law enforcement agencies with remote access to
BSA data through FinCEN’s Gateway system. Second, FinCEN had neither a policy nor a
methodology to review internal analyst queries for possible misuse or abuse or to prevent
and detect browsing of BSA and law enforcement data. Third, after FinCEN increased the
security level requirement for its contract employees, they were still allowed to access
sensitive BSA and other data, even though they had not yet obtained the proper
clearances.

We recommended that FinCEN develop a strategy to implement FinCEN’s goal of
performing more complex analysis, have a mechanism for periodically assessing its
progress in achieving its strategic goals and objectives, and enhance its current database
system or acquire a new system. To improve FinCEN’s data security controls, we
recommended that FinCEN (1) continue to monitor the scheduling and completion of its
onsite inspections of Gateway users, (2) establish a policy to address inappropriate
browsing of databases with a methodology to monitor system activity, and (3) conduct a
risk assessment of the contract employees’ use of FinCEN’s systems to ensure that they

14         Treasury Office of Inspector General Semiannual Report – September 2006
                S IGNIFICANT A UDITS AND E VALUATIONS

conducted appropriate research and case support. FinCEN concurred with our
recommendations and has either completed action or established target dates for
completion. (OIG-06-030)

OCC’s and OTS’s Examinations of Financial Institutions With OFAC Foreign
Sanctions Programs

OFAC administers and enforces economic and
trade sanctions against targeted foreign countries,      …OCC’s and OTS’s OFAC
terrorists, international narcotics traffickers, and     examination work papers did not
those engaged in activities related to the               provide assurance that national banks
proliferation of weapons of mass destruction. In         and federal and state-chartered thrift
accordance with these sanctions, financial               institutions were adequately
institutions are required to block or reject any         reviewing or effectively administering
transactions involving individuals, companies, or        OFAC’s foreign sanctions programs.
other organizations with a link to these entities.
Lacking direct authority, OFAC relies on financial institution regulators to ensure
compliance. The regulators, however, manage their compliance examinations
independently from OFAC and are prevented from sharing information with OFAC.
As part of a broader, ongoing OIG audit of OFAC’s administration of its sanctions
programs, we tested regulator oversight for a sample of financial institutions examined by
OCC and OTS. We found that OCC’s and OTS’s OFAC examination work papers did not
provide assurance that national banks and federal and state-chartered thrift institutions
were adequately reviewing or effectively administering OFAC’s foreign sanctions programs.
We found, for every examination sampled, one or more instances in which documentation
was insufficient to verify that examiners adequately assessed OFAC program compliance.
Specifically, the OCC examination workpapers did not always contain sufficient
documentation to demonstrate that examiners fully assessed (1) bank policies and
procedures for its OFAC compliance program, (2) bank comparisons of its accounts with
OFAC listings, (3) correspondence between the bank and OFAC, and (4) results of internal
bank audits for possible OFAC program concerns. Similarly, the OTS examination work
papers did not always contain sufficient documentary evidence to demonstrate that
examiners fully assessed (1) policies and procedures for the OFAC compliance program,
(2) internal audit results for possible OFAC program concerns, and (3) OFAC penalty or
warning notices that had been sent to thrifts.

OCC officials agreed with the observations, but noted that OCC’s policy on supervisory
workpapers states that examiners should generate and retain only those documents
necessary to support the scope of supervisory activity, significant conclusions, rating
changes, or changes in risk profile. OTS’s policy is that documentation of OFAC
examinations is generally minimal unless a problem is noted. OTS’s examination
workpapers are “exception-based.” We believe, however, that these policies make it
difficult to assess the adequacy of the reviews and create inconsistency in how program
results are documented.


            Treasury Office of Inspector General Semiannual Report – September 2006               15
                S IGNIFICANT A UDITS AND E VALUATIONS

We made recommendations to OCC and OTS to ensure that their examiners use OFAC
examination guidelines contained in the Federal Financial Institutions Examination Council
Bank Secrecy Act/Anti-Money Laundering Manual, issued in June 2005. We also
recommended that examiners better document their planning, work performed and
significant conclusions in their workpapers.

In their replies to the reports, OCC and OTS both recognized the need to better document
their OFAC examination work. OCC concluded that the level of exceptions noted in our
audit report pointed to a need for improvement in practice. In this regard, OCC will
reinforce its expectations with examination staff. OTS agreed to issue and implement
examiner guidance to ensure enhancement of OFAC procedures in the fourth calendar
quarter of 2006. (OIG-06-033 and OIG-06-044)

The Mint Needs to Determine Whether Its Long-Delayed A-76 Competition for Coin
Blank Production Should Be Continued

                                       OMB Circular No. A-76 (Revised), Performance of
 Nearly 3 years since the competition
                                       Commercial Activities (Circular A-76), reiterates the
 was first announced and 1 year since
                                       longstanding policy of the federal government to rely
 the competition was re-announced,
                                       on the private sector for needed commercial services.
 the Mint is still not close to
                                       In general, Circular A-76 requires that federal
 completing the BAU competition. The
                                       agencies identify activities performed by government
 reasons for the Mint’s delays in
                                       personnel as either commercial or inherently
 completing the BAU competition are
                                       governmental. As appropriate, agencies are then to
 numerous, but mostly due to poor
                                       use a competition to determine whether government
 planning by the Mint….
                                       personnel should perform a commercial activity.
During the period, we issued a second audit report on the Mint’s standard A-76
competition for its blanking, annealing, and upsetting (BAU) manufacturing process to
produce coin blanks. As in our prior audit report (issued October 2004), we concluded that
the Mint did not adequately plan or implement this competition.

The Mint publicly announced the BAU competition in October 2003 but did not complete
the competition within the 1-year timeframe required by Circular A-76. The Mint
subsequently obtained an OMB-approved deviation to certain Circular A-76 requirements in
July 2005 and, in turn, re-announced the competition in September 2005. Nearly 3 years
since the competition was first announced and 1 year since the competition was
re-announced, the Mint is still not close to completing the BAU competition.

The reasons for the Mint’s delays in completing the BAU competition are numerous, but
mostly due to poor planning by the Mint, both at the outset of the competition in 2003 and
after the OMB-approved deviation last year. Some of the deficiencies we noted in the
Mint’s planning and implementation of the competition include the following: (1) hiring a
contractor to develop the Performance Work Statement (PWS), and then changing it,
(2) publishing a PWS with errors in the specifications for coin blanks, (3) not addressing
Circular A-76 requirements concerning Government Furnished Property requirements or the


16          Treasury Office of Inspector General Semiannual Report – September 2006
                S IGNIFICANT A UDITS AND E VALUATIONS

use of potential excess space, (4) not addressing security issues in the draft PWS or draft
solicitations, and (5) issuing a draft Mint directive for conducting A-76 competitions but
not following its guidelines.

Given the significant actions still needed by the Mint to address these and other
deficiencies, we recommended that the Mint expeditiously complete a formal business case
analysis to determine whether the activity should continue to be competed. Mint
management concurred with this recommendation and provided a target date of
December 31, 2006, for completing the business case analysis and deciding on an
appropriate course of action properly supported by the analysis.

It should be noted that we undertook our audit of the BAU competition to address a
requirement in House Conference Report (H. Rep. 108-401) for the Consolidated
Appropriations Act, Fiscal Year 2004, which directed our office to perform a study on the
potential and cost-effectiveness of expanded use of coin blanks in the production of
circulating coins. However, we informed the Committees on Appropriations in March 2004
that since the Mint had already publicly announced the BAU competition, the study as
described in the Report could not be performed. Instead, we advised the Committees that
we would audit the Mint’s compliance with Circular A-76 in carrying out the competition.
(OIG-06-036)

TTB’s Risk Model for Selecting Taxpayers for Audit Could Be Improved

The TTB strategic plan for fiscal years 2003 through
                                                         We reviewed the fiscal year 2005 risk
2008 calls for its Tax Audit Division (TAD) to move
                                                         model and found that it contained
from random selection of audit targets to risk-based
                                                         errors which resulted in the
selection. To achieve this goal, TAD developed a
                                                         assignment of incorrect risk rating
risk model that includes a variety of factors, with a
                                                         scores to some large taxpayers.
major emphasis on revenue. TAD focused its audits
on the largest taxpayers in a cycle that would
complete audits of all large taxpayers in 5 years. These taxpayers accounted for
approximately 98 percent of all excise taxes collected. Using this strategy, TAD reported
about $17.1 million in additional taxes due or collections from 110 completed audits in
fiscal year 2005.

We reviewed the fiscal year 2005 risk model and found that it contained errors that
resulted in the assignment of incorrect risk rating scores to some large taxpayers. We also
could not easily reconcile certain source data with the data found in the risk model. While
attempting to verify risk model data at TTB’s National Revenue Center, we found that
individual taxpayer account balances may be inaccurate because of a federal excise tax
system control weakness in the processing of electronic fund transfer payments to
individual taxpayer accounts. TTB is currently working to resolve this problem.

TTB concurred with our recommendations addressing the use of the risk model to select
taxpayers for audit, the accuracy of data in the risk model, and controls over electronic
funds transfer payments. (OIG-06-043)

            Treasury Office of Inspector General Semiannual Report – September 2006              17
                         S IGNIFICANT I NVESTIGATIONS

Individual Pleads Guilty to Defrauding Federal Emergency Management Agency

                                              On August 28, 2006, Jeffrey Rothschild pled
 Jeffrey Rothschild pled guilty in the U.S.   guilty in the U.S. District Court for the District of
 District Court for the District of           Columbia, to a three-count criminal information
 Columbia, to a three-count criminal          charging him with bank fraud, mail fraud, and
 information charging him with bank fraud,    money laundering from September to December
 mail fraud, and money laundering from        2005. He was involved in a scheme to defraud
 September to December 2005, in               the Federal Emergency Management Agency
 connection with a scheme to defraud          (FEMA) of more than $100,000 in relief funds
 FEMA of more than $100,000 in relief         intended for victims of Hurricanes Katrina and
 funds intended for victims of Hurricanes     Rita. The payments were made through FMS.
 Katrina and Rita.
                                            Rothschild’s arrest on June 27, 2006, in El Paso,
Texas, was the result of a joint investigative effort by Treasury OIG, the DC Metro Area
Fraud Task Force, the United States Postal Inspection Service, the U.S. Secret Service, and
the Department of Homeland Security OIG. Rothschild confessed to committing
approximately $100,000 in FEMA Katrina/Rita benefits fraud, $40,000 to $50,000 in
credit card fraud, and $40,000 in a check kiting scheme, through the use of fraudulent
identities. Sentencing for Rothschild is scheduled for December 1, 2006. He faces between
84 and 105 months in prison under federal sentencing guidelines.

This case was highlighted in the first annual report of the Hurricane Katrina Fraud Task
Force prepared by the Department of Justice.

DC Resident Pleads Guilty to Hurricane Katrina Fraud

As part of the Attorney General’s and President’s        DC resident, Charles Washington
Council on Integrity and Efficiency’s commitment to      ...falsely claimed that he rented and
combat fraudulent schemes related to Hurricanes          was living in a single-family
Katrina and Rita, OIG led the investigation of a case    residence in New Orleans, LA,
against a DC resident, Charles Washington, for           during Hurricane Katrina….
making a false statement on a FEMA application.
Washington falsely claimed that he rented and was living in a single-family residence in
New Orleans, LA, during Hurricane Katrina, that his home was damaged, and that he lost
personal property as a result of the hurricane. He received three Treasury checks totaling
$14,749. Washington pled guilty on June 13, 2006, in the U.S. District Court for the
District of Columbia, to a false statement charge. Washington is scheduled for sentencing
on November 7, 2006, and faces a maximum of 5 years imprisonment.




18          Treasury Office of Inspector General Semiannual Report – September 2006
                         S IGNIFICANT I NVESTIGATIONS

BEP Employee Stole Partially Printed $100 Federal Reserve Notes

 Treasury OIG special agents, with theIn May 2006, BEP notified OIG that at least 64
 assistance of BEP investigators and  incomplete $100 notes, missing the Treasury seal
 personnel from the U.S. Secret       and serial number, had entered into commerce. As
 Service, recovered more than 180 of  the integrity of U.S. currency is a significant
 these notes from the Philadelphia    Departmental responsibility, Treasury OIG special
 Federal Reserve Bank and various     agents, with the assistance of BEP investigators and
 casinos in Delaware, New Jersey, and the U.S. Secret Service, commenced an investigation
 West Virginia.                       which led to the recovery of more than 180 of these
                                      notes from the Philadelphia Federal Reserve Bank and
various casinos in Delaware, New Jersey, and West Virginia. It was quickly determined
that 672 partially printed $100 notes (originating from 21 32-count sheets) were stolen
from the BEP’s Eastern Currency Facility in Washington, DC. The Federal Bureau of
Investigation (FBI) subsequently joined the investigation.

Surveillance video from a Delaware casino disclosed the passing of several of the partially
printed notes and led to the identification of a BEP employee, David Faison, a stock control
recorder. Additional surveillance of Faison’s activities resulted in search warrants being
obtained for his residence, vehicle, and BEP locker. The execution of the search warrant at
Faison’s residence resulted in the recovery of nine of the 32-count sheets and one partial
sheet consisting of 24 partially printed $100 notes. Faison was subsequently arrested by
Treasury OIG and FBI special agents. On September 6, 2006, pursuant to a plea
agreement, Faison pled guilty to one count of possession of tools and materials for
counterfeiting purposes. He is presently awaiting sentencing and the investigation remains
ongoing in order to validate admissions made by Faison.

OIG Proactive Investigative Initiative Identified Improper Worker’s Compensation
Payments

As part of an Inspector General-wide proactive project to identify potential fraudulent
Federal Employee Workers’ Compensation (FECA) claims, an OIG investigation revealed
that the daughter of a deceased BEP employee improperly received $18,206 in FECA
payments after the employee’s death. The daughter took the money from the deceased
employee’s bank account and deposited some of the funds into a Certificate of Deposit
under her name. As a result of our investigation, the individual arranged to repay the
money, and the deceased employee’s name was removed from the Department of Labor’s
Office of Workers Compensation payment rolls preventing potential future improper
payments of $21,570.

Inquiry Into an Alleged Conflict of Financial Interest by Former Secretary Snow

In response to a referral from a member of Congress, OIG conducted an inquiry into a
possible violation of Title 18 U.S.C. § 208 (conflict of financial interest) by then Secretary


            Treasury Office of Inspector General Semiannual Report – September 2006         19
                          S IGNIFICANT I NVESTIGATIONS

of the Treasury, John Snow. The issue arose because of the former Secretary’s
membership on the Committee on Foreign Investment in the United States and its January
2006 approval of Dubai Ports World’s (DPW) planned acquisition of Peninsular and Oriental
Steam Navigation Company (P&O). Because DPW had acquired CSX World terminals in
February 2005 from the CSX Corporation (the Secretary’s former employer), it was alleged
in the referral that Secretary Snow might benefit from DPW’s acquisition of P&O.

The inquiry disclosed that Secretary Snow maintained limited financial ties to CSX in the
form of a life insurance policy, a fixed pension, and a deferred compensation plan, and
these items were included in his public financial disclosure reports. The former Secretary
had divested himself of his other financial interests in CSX by April 2003, and stood to
bear no financial gain from CSX’s sale of CSX World Terminals to DPW. The inquiry
concluded no conflict of interest by Secretary Snow. It should be noted that DPW later
decided not to complete the acquisition of P&O.

Former Navy Program Manager Imprisoned for Contract Fraud

A joint investigation by OIG and the Naval Criminal    John Dyer, a former Navy Program
Investigative Service disclosed that John Dyer, a      Manager, covertly arranged for his
former Navy program manager, covertly arranged for wife to be employed under a contract
his wife to be employed under a contract awarded       awarded by a component of the
by a component of the Treasury Franchise Fund. In      Treasury Franchise Fund.
doing so, Dyer manipulated the contracting process
and caused the government to pay the contractor $81,374 under the fraudulent task order.
Of this amount, $57,000 went to Dyer’s wife. In addition, in 2001 and 2002 Dyer caused
two other government contractors to employ his girlfriend as a graphic artist on contract
work for the Navy. Dyer’s girlfriend earned approximately $40,000 and kicked backed
approximately $10,000 to Dyer.

On March 23, 2006, Dyer pled guilty to 12 felony counts, including conspiracy to present
false claims, false claims, embezzlement of public money, and giving a gratuity to a public
official. On June 29, 2006, Dyer was sentenced to 63 months in prison and was ordered
to pay restitution of $81,344 and a special assessment fee of $1,200.

Four Individuals Involved in Identify Theft and Bank Fraud Pled Guilty

                                              Treasury OIG worked jointly with other federal
 Treasury OIG worked jointly with other       and state law enforcement agencies on an
 federal and state law enforcement agencies   investigation of a complex bank fraud scheme
 on an investigation of a complex bank        wherein the participants created counterfeit
 fraud scheme wherein the participants        checks by using names, identification numbers,
 created counterfeit checks by using          and bank account numbers stolen from a number
 names...and bank account numbers stolen
                                              of victims and used the routing codes assigned
 from a number of victims….
                                              to six different financial institutions to legitimize



20          Treasury Office of Inspector General Semiannual Report – September 2006
                         S IGNIFICANT I NVESTIGATIONS

the checks. The checks were used to purchase a variety of merchandise, including jewelry,
electronics, and furniture.

For his part in this scheme, John Caulder, of Richmond, VA, pled guilty in U.S. District
Court for the Eastern District of Virginia on August 1, 2006, to conspiracy, bank fraud,
and aggravated identity theft charges. Caulder faces up to 30 years imprisonment and a
fine of up to $1 million for bank fraud, as well as a mandatory, consecutive 2-year prison
term for aggravated identity theft. At the same time, Caulder’s mother, Susan Caulder,
also of Richmond, Virginia, pled guilty to obstruction of justice. Mrs. Caulder faces up to
20 years of imprisonment and a maximum fine of up to $250,000 when sentenced. In
addition, Heather Nicole Weston and Katharine Caulder Staton – daughter of Susan
Caulder – pled guilty to conspiracy to commit bank fraud and aggravated identity theft in
July 2006. They will face the same penalties as John Caulder when they appear for
sentencing scheduled in November 2006.

Mint Employee Sentenced for Embezzling Union Funds

An investigation by the Treasury OIG and the Department of Labor Office of Labor
Management Standards revealed a scheme by Mary Garner, a Mint management analyst,
to embezzle union dues. The investigation determined that Garner, who was also a labor
union officer, misused her government travel card and attempted to charge the local union
for travel expenses previously reimbursed by the government. The U.S. Attorney’s Office
for the District of Columbia reached a plea agreement with Garner who pled guilty to one
count of mail fraud for her scheme to defraud American Federation of Government
Employees Local 3656 of $12,195. Garner was sentenced on September 26, 2006, to 5
years probation, 6 months home detention, and 360 hours community service. She was
also ordered to pay restitution of $11,959 with a special assessment fee of $100.
Additionally, after the Mint proposed termination, Garner resigned.

Office of Technical Assistance Contract Employee Terminated

An OIG investigation revealed that an Office of           An OIG investigation revealed that
Technical Assistance (OTA) contract employee was          an Office of Technical Assistance
aware of a reportable debt in the amount of               contract employee was aware of a
$11,636 and failed to disclose the debt on his            reportable debt...and failed to disclose
public financial disclosure reports for 2003 and          the debt on his public financial
2004, as required under his contract with the             disclosure reports for years 2003 and
Treasury. The contract employee, a former Special         2004, as required under his contract
Agent with the Bureau of Alcohol, Tobacco and             with the Treasury.
Firearms as well as the Environmental Protection
Agency, worked as a Resident Advisor in Africa, advising on anti-public corruption matters.
After initiation of the investigation, the employee’s contract with OTA was terminated.




            Treasury Office of Inspector General Semiannual Report – September 2006            21
                        S IGNIFICANT I NVESTIGATIONS

OCC Bank Examiners Suspended Without Pay for Accepting Gratuities from Bank
Officials

An OIG investigation determined that eight OCC national bank examiners accepted
gratuities (i.e., payment for meals and golf outings) from bank officials, in violation of OCC
ethics policy and, potentially, 18 USC § 213 (acceptance of loan or gratuity by bank
examiner). OIG found no evidence that the gratuities influenced the examiners in the
performance of their official duties or that the examiners solicited or coerced the offering
of a gift. OCC suspended without pay five examiners for 14 days, two examiners for 3
days, and one examiner for 1 day.

BPD Attorney-Advisor Suspended Without Pay for Misusing Government Equipment

An OIG investigation disclosed that a BPD attorney-advisor misused his government
computer, Internet access and official time for inappropriate personal use, including
viewing of sexually oriented and sexually explicit materials. In May 2006, BPD suspended
the employee from duty without pay for 14 calendar days for using a government
computer to access unauthorized sites of a sexual or inappropriate nature, and wasting
government time.

BEP Employee Misused Government Travel Card

An OIG investigation determined that a BEP currency shipment checker/processor
knowingly and without authority used his Citibank Government Travel Card to charge
$6,108 in personal expenses. In addition, the employee failed to pay his monthly balances
in full as required. As a result of the OIG investigation, BEP proposed termination of the
employee. The employee resigned from his position effective August 23, 2006.



The following are updated cases of investigative activities from previous semiannual
reports.

Correction of Erroneous Semiannual Reports: Former Treasury Acting CIO
Sentenced for Making False Statement and Debarred, But Debarment Temporarily
Enjoined

In our semiannual report for the period ended March 31, 2004, we stated that a former
Treasury Acting Chief Information Officer, Maria “Mayi” Canales, agreed to plead guilty to
a violation of 18 U.S.C. § 1018 for making false statements and to be debarred from doing
business with the federal government for life. In our semiannual report for the period ended
September 30, 2004, we reported that Ms. Canales had pled guilty; that she had been
sentenced to probation, a fine, and community service; and that she had been debarred for
life. These reports were incorrect in part. Ms. Canales did plead guilty to violating



22         Treasury Office of Inspector General Semiannual Report – September 2006
                       S IGNIFICANT I NVESTIGATIONS

18 U.S.C. § 1018 for making false statements to an OIG investigator, and was sentenced
as reported. However, she had not agreed to be debarred for life, and in fact had not been
debarred, at the time of the semiannual reports. It was not until June 27, 2006, that the
Department debarred Ms. Canales from doing business with the federal government for a
period of 3 years. On July 28, 2006, Ms. Canales brought suit in U.S. District Court for
the District of Columbia against the Department and OIG, challenging the debarment and
OIG’s erroneous statements. As of September 30, 2006, the U.S. District Court has
temporarily enjoined enforcement of the debarment, pending resolution of this challenge.
OIG regrets its erroneous reporting on this matter.

Hamilton Bank Case

As previously reported, OIG, in conjunction with the Federal Deposit Insurance Corporation
OIG, conducted an investigation that led to a 42-count indictment -- for conspiracy, wire
fraud, securities fraud, false filings with the Securities and Exchange Commission, false
statements to accountants, obstruction of examination of a financial institution, and
making false statements to OCC -- against Eduardo Masferrer, former Chief Executive
Officer of Hamilton Bancorp and Hamilton Bank (Hamilton), Juan Carlos Bernace, President
and a Director of Hamilton, and John Jacobs, Senior Executive of Hamilton. They were
indicted for their participation in a scheme whereby they fraudulently inflated the reported
results of operations and financial condition of Hamilton and defrauded the investing public
and the bank/securities regulators. In February 2005, Bernace pled guilty to two counts of
securities fraud. In October 2005, Jacobs pled guilty to one count of securities fraud and
one count of obstruction of an OCC examination.

Update: In May 2006, Masferrer was found guilty in the U.S. District Court for the
Southern District of Florida for obstruction of an OCC examination, conspiracy, wire fraud,
defrauding a financial institution, false statements, and securities fraud. On July 27, 2006,
Masferrer was sentenced to 30 years incarceration, while Bernace and Jacobs were each
sentenced to 28 months of incarceration.

Former BEP Employee Pleads Guilty to Theft of Currency from BEP

As previously reported, the Treasury OIG was notified by BEP Police of a possible theft of
currency from the Western Currency Facility (WCF) in Ft. Worth, Texas. A joint
investigation with the U.S. Secret Service identified a BEP employee, Donald Stokes, who
was alleged to have removed at least $5,000 of $50 Federal Reserve Notes slated for
destruction from the WCF. Further investigation disclosed that Stokes had been stealing
currency, in the form of uncut notes, from the BEP facility since 1998. On July 13, 2005,
Stokes pled guilty to one count of interstate transportation of stolen property for the
$30,000 of currency that he admitted stealing from the WCF.

Update: On November 22, 2005, Stokes was sentenced to 41 months in jail and 36
months of probation. He was also ordered to pay a $10,000 fine.



           Treasury Office of Inspector General Semiannual Report – September 2006         23
                        S IGNIFICANT I NVESTIGATIONS

OIG Participation in Baltimore Fraud Task Force Identity Theft Investigation Leads
to Guilty Pleas and a Conviction

As reported in the previous semiannual report, OIG, as a member of the Baltimore
Metropolitan Fraud Task Force, participated in an investigation that led to a 10-count
indictment of an individual for bank fraud, aggravated identity theft, and aiding and
abetting.

Update: The indictment charged Cleveland Kilgore with a scheme to defraud the Bank of
America through unauthorized use, from September 2004 through March 2005, of the
personal information of Bank of America account holders in California. Kilgore was charged
with obtaining account holders’ bank account numbers and balances, names, addresses,
and driver’s license numbers, and manufacturing identification for himself and two
associates, Donna Spencer and Eric Wiggins. The scheme netted approximately $274,000
from Bank of America branch locations in Maryland, Virginia, North Carolina, and Florida.

On September 15, 2006, Eric Wiggins pled guilty to one count each of bank fraud,
aggravated identity theft, and conspiracy. On September 19, 2006, Donna Spencer pled
guilty to one count each of bank fraud and aggravated identity theft. On September 28,
2006, Kilgore was found guilty after a jury trial in the U.S. District Court for the District of
Maryland on four counts of bank fraud, four counts of aggravated identity theft, and aiding
and abetting. Wiggins is scheduled to be sentenced on December 11, 2006. Spencer’s
sentencing date is to be determined. Kilgore is scheduled to be sentenced on
December 15, 2006.

BEP Supervisory Police Officer Misused Government Computer

As reported in the previous semiannual report, an OIG investigation determined that a BEP
supervisory police officer used his assigned government computer to access pornographic
Web sites on an almost daily basis and transmitted pornographic e-mails while on duty.

Update: As a result of the investigation, the BEP supervisory police officer received a
14-day suspension without pay.




24          Treasury Office of Inspector General Semiannual Report – September 2006
          O THER OIG A CCOMPLISHMENTS AND A CTIVITIES

Treasury OIG Hosts Delegation from China

On September 14, 2006, Inspector General Harold Damelin, Counsel to the IG Rich Delmar,
Deputy Assistant Inspector General for Audit Bob Taylor, and Special Agent in Charge
Brian Crane met with a delegation from the Ministry of Supervision, People’s Republic of
China, including Director General Zhang Lijun, Department of Personnel. We discussed the
mission of U.S. government Inspectors General and the Treasury OIG. The meeting was
arranged by the 21st Century Institute. The delegation also visited other federal agencies
during its trip to Washington, DC. This was our second meeting with a delegation from the
Ministry of Supervision; the first was in November 2004.




 Chinese government officials
 are briefed by Inspector
 General Damelin and his
 senior staff on the mission of
 federal Offices of Inspector
 General.




Audit External Peer Reviews

Audit organizations that perform audits and attestation engagements of federal government
programs and operations are required by Government Auditing Standards to undergo an
external peer review every 3 years. The objective of an external peer review is to
determine whether, during the period under review, the audit organization’s internal quality
control system is adequate and whether quality control policies and procedures are being
complied with to provide the audit organization with reasonable assurance of conforming
with applicable professional standards.

During this semiannual period, the Social Security Administration (SSA) OIG rendered an
unqualified opinion on the Treasury OIG’s system of quality control for the audit function
for the year ended March 31, 2006. In its report dated August 18, 2006, SSA OIG also
noted one finding in our system of audit quality control for which we have taken corrective
action. The external peer review report is available on our website.

Also during this semiannual period, we completed an external peer review of the
Department of Education OIG Office of Audit.




             Treasury Office of Inspector General Semiannual Report – September 2006     25
         O THER OIG A CCOMPLISHMENTS AND A CTIVITIES

OIG Participation in Forward Challenge 2006

On June 21, 2006, FEMA conducted a federal executive branch interagency exercise,
Forward Challenge 2006 (FC 06), to test its readiness and capabilities to execute
continuity of operations plans (COOP). FC 06 was a full-scale, externally evaluated,
scenario-based exercise that gave each participating department and agency the
opportunity to activate its COOP plan, deploy COOP personnel to an alternate site, and
perform its essential functions from that alternate site. FC 06 provided a framework for
testing the interoperability and interconnectivity between departments’ and agencies’
COOP sites to ensure compliance with the annual requirement outlined in Federal
Preparedness Circular 65, Federal Executive Branch Continuity of Operations (COOP), to
engage in joint agency exercising of COOP plans. Treasury OIG participated in FC 06,
providing integral support to Treasury’s Emergency Management Center, as well as testing
the OIG COOP.

IGATI Curriculum Review Board Update

The Inspectors General Auditor Training Institute (IGATI) was created by the President’s
Council on Integrity and Efficiency (PCIE) in December 1990 as a reimbursable program
within Treasury OIG. IGATI provides training to enhance the skills, abilities, and knowledge
of auditors in the federal OIG community. Under the leadership of Assistant Inspector
General for Audit Marla Freedman, the IGATI Curriculum Review Board (Board) was formed
in fiscal year 2005 to assist the PCIE Audit Committee in achieving its strategic goal to
identify and provide useful, relevant, and cost-effective auditor training.

During this semiannual reporting period, the Board completed reviews of 4 IGATI courses,
bringing to 11 the number of courses reviewed since the Board’s inception. In brief, the
Board reported that the 4 courses provided valuable training and also made a number of
recommendations to further improve course content and delivery. Participating in the
course reviews completed this period were the OIGs of the Departments of Defense,
Interior, Commerce, U.S. Agency for International Development, Environment Protection
Agency, and Social Security Administration.

In our last semiannual report, we discussed plans to consolidate IGATI with the Inspector
General Criminal Investigator Academy and the Inspector General Management Institute to
become the Inspector General Institute (IG Institute). During this semiannual period, the
PCIE and Executive Council for Integrity and Efficiency (ECIE) decided to cancel the
IG Institute initiative. In September 2006, the PCIE Audit Committee re-established IGATI
with Treasury OIG as the cognizant agency. The PCIE Audit Committee will continue to
have oversight over IGATI and has asked the Board to continue its assessments of course
content and relevance.




26         Treasury Office of Inspector General Semiannual Report – September 2006
            O THER OIG A CCOMPLISHMENTS AND A CTIVITIES

PCIE Awards

At the annual joint PCIE and ECIE awards ceremony on October 24, 2006, Treasury OIG
received three Awards for Excellence in recognition of its work on certain audits completed
during fiscal year 2006. An OIG special agent was also recognized in a multi-agency
Award for Excellence. Additionally, Treasury OIG also accepted an Award for Excellence
on behalf of a number of agencies participating in a PCIE-wide project.

The achievements recognized were as follows:

•     An audit that found that the Treasury Communications Enterprise procurement was
      poorly planned, executed, and documented.

•     An audit of BEP that identified an accounting issue having government-wide
      implications for increasing revenue to the Treasury General Fund.

•     An audit of the major challenges faced by FinCEN to register money services
      businesses as required by the Money Laundering Suppression Act.

•     A multi-agency civil investigation with Treasury OIG participation that resulted in
      millions of dollars in recovery for travel rebates related to government contracts that
      were improperly retained by several large public accounting and consulting firms.

•     The exceptional support by the multi-agency IGATI Curriculum Review Board to further
      the PCIE Audit Committee’s strategic goal for quality auditor training.

The PCIE and ECIE also bestowed its June Gibbs Brown Career Achievement Award
posthumously to William H. Pugh, III, who served with the Treasury OIG for 10 years as
the Deputy Assistant Inspector General for Financial Management and Information
Technology Audit. Mr. Pugh was recognized for his exceptional service to both the
Department of the Treasury and the Federal Audit Community. Our previous semiannual
report was dedicated to the memory of Mr. Pugh, who passed away in February 2006.

Improper Payments Initiative

                                       The Office of Investigations recently initiated, with
    This Treasury OIG initiative directly
    supports the President’s Managementthe OIGs of five other agencies, a project to
    Agenda to reduce improper payments proactively identify potentially fraudulent benefit
    government-wide.                   payments warranting further investigation. The other
                                       agencies we are working with on this initiative are
the Department of Veterans Affairs, the Social Security Administration, the Railroad
Retirement Board, the Office of Personnel Management, and the Defense Criminal
Investigative Service. This Treasury OIG initiative directly supports the President’s
Management Agenda to reduce improper payments government-wide. Chief among our
roles is to help federal agencies detect, investigate, and prevent criminal activity related to
improper benefit payments, thus helping to ensure that taxpayer dollars are spent wisely
               Treasury Office of Inspector General Semiannual Report – September 2006          27
         O THER OIG A CCOMPLISHMENTS AND A CTIVITIES

and efficiently. Since its inception in mid-July 2006, we have opened, in conjunction with
the other participating OIGs, 20 investigative cases involving nearly $1.4 million in
payments and made 3 arrests.

FECA Initiative

As reported in our semiannual report for the period
                                                             During the semiannual period,
ended March 31, 2006, we initiated a proactive project,
                                                             Treasury OIG special agents and
which is being conducted jointly by the Offices of
                                                             auditors worked together to
Investigations and Audit, to identify potential instances
                                                             identify potential fraudulent
of fraud in the FECA program within Treasury. This
                                                             activity within the FECA program
project is part of a larger initiative being carried on
                                                             at Treasury.
throughout the Inspector General Community. Work on
the project continued during this semiannual reporting
period. Specifically, OIG special agents and auditors analyzed FECA payment and claim
data for unusual items. As discussed on page 19 of this report, we determined one
situation where FECA benefits continued to be paid after a BEP employee’s death, and
were received by the employee’s daughter. OIG auditors are also assessing FECA program
controls at selected Treasury bureaus.

Hurricane Katrina Fraud Task Force

On September 13, 2006, Attorney General Alberto R. Gonzales addressed the first annual
conference of the Hurricane Katrina Fraud Task Force in New Orleans, LA. Assistant
Attorney General Alice S. Fisher presented the Attorney General with the task force’s first-
year report. OIG participated in the gathering of more than 150 professionals to discuss
trends and patterns in hurricane-related fraud, suggested best practices for law
enforcement after future disasters, and task force accomplishments to date. The principal
types of fraud on which the Task Force is now concentrating are government contract and
procurement fraud, public corruption, government and private-sector fraud, identity theft,
and fraudulent charities.

Among the cases highlighted in the annual report was OIG's investigation of Jeffrey
Rothschild (described on page 18 of this report), which was successfully prosecuted by
the U.S. Attorney for the District of Columbia.

Suspect activity should be reported to the Hurricane Katrina Fraud Task Force Hotline at
(866) 720-5721, faxed to (225) 334-4707, or e-mailed to HKFTF@leo.gov.

Richmond, Virginia, Fraud and Identity Theft Task Force

As a member of the Metro-Richmond Fraud and Identity Theft Task Force, Treasury OIG is
tasked to investigate criminal offenses involving advance fee and split-deposit schemes,
counterfeit checks, Internet fraud, stolen government checks, and aggravated identity theft
within the Richmond, Virginia, metropolitan area. The Assistant U.S. Attorney leading the
task force is committed to aggressively investigating and prosecuting perpetrators of these
28         Treasury Office of Inspector General Semiannual Report – September 2006
          O THER OIG A CCOMPLISHMENTS AND A CTIVITIES

crimes. As discussed on page 20 of this report, OIG worked jointly with other task force
members to investigate a complex bank fraud scheme involving four individuals who pled
guilty during the period.

OIG Participation in the U.S. Secret Service–Sponsored Baltimore Fraud Task Force

                                       Since February 2006, OIG has actively participated in
 Since joining the task force, OIG has
                                       the U.S. Secret Service-sponsored Baltimore Fraud
 played a part in the execution of 3
                                       Task Force which includes agents and officers from a
 federal and state search warrants and
                                       number of federal, state, and local law enforcement
 participated in 11 arrests.
                                       agencies in the Washington, DC and Maryland
                                       metropolitan areas. The primary objective of the task
force is to combat large-scale fraud and identity theft that transcends jurisdictions or has a
significant community impact. Our office’s participation in the task force has involved OIG
in a number of significant matters, including bank fraud investigations and crimes against
Treasury, primarily concerning fraudulent transactions involving U.S. government checks
issued by FMS.

Since joining the task force, OIG has played a part in the execution of 3 federal and state
search warrants and participated in 11 arrests. As discussed on page 24 of this report,
two individuals pled guilty and another individual was found guilty after a jury trial as a
result of a task force investigation in which Treasury OIG participated.

OIG Participation in U.S. Secret Service–Sponsored DC Metro Area Fraud Task
Force

OIG continued to be an active participant in the DC       As a result of OIG’s participation in
Metro Area Fraud Task Force, which is coordinated         the task force, a number of significant
by the U.S. Secret Service, and includes agents and       investigations were referred to
officers from a number of federal agencies and state      OIG…Additionally, OIG participated
and local departments from the metropolitan               in the execution of 13 search
Washington, DC area. As a result of OIG’s                 warrants and 10 arrests.
participation in the task force, a number of
significant investigations were referred to OIG, including a significant Hurricane Katrina
fraud case discussed on page 18 of this report involving over $100,000 in losses.
Additionally, OIG participated in the execution of 13 search warrants and 10 arrests.

Treasury OIG Informs DC Metro Area Local Law Enforcement About Potential
Frauds Involving False Treasury Instruments

The OIG takes seriously the misuse of the Treasury seal and other fraudulent Treasury
instruments. Misuse of these instruments often involves identity theft that harm innocent
victims. During 2006, we established contacts with 16 municipal and county law
enforcement agencies in the DC Metro area to better inform them about potential
fraudulent activities that involved the criminal or inappropriate misuse of Treasury seals or

            Treasury Office of Inspector General Semiannual Report – September 2006                 29
        O THER OIG A CCOMPLISHMENTS AND A CTIVITIES

fraudulent Treasury instruments, such as Uniform Commercial Code bills of exchange or
bonds that appear to be Treasury instruments.




30         Treasury Office of Inspector General Semiannual Report – September 2006
                              S TATISTICAL S UMMARY

Summary of OIG Activity
For the 12 Months Ended September 30, 2006


             OIG Activity                  10/01/2005-        4/1/2006 –        Period Totals
                                           03/31/2006         9/30/2006
                               Office of General Counsel Activity
    Regulation and Legislation                           3                 15               18
    Reviews
    Instances Where Information was                      0                 0                    0
    Refused
                                       Office of Audit Activities
    Reports Issued (Audits and                        31                   17               48
    Evaluations)
    Disputed Audit Recommendations                       0                 0                    0
    Significant Revised Management                       0                 0                    0
    Decisions
    Management Decision in Which                         0                 0                    0
    the IG Disagrees
    Monetary Benefits (Audit)
    a) Questioned Costs                              $0         $5,566,577         $5,566,577
    b) Funds Put to Better Use                       $0                 $0                 $0
    c) Revenue Enhancements                 $29,400,000                 $0        $29,400,000
    Total Monetary Benefits                 $29,400,000         $5,566,577        $34,966,577
                                Office of Investigations Activities
    Reports of Investigation                          16                   13               29
    Preliminary Inquiry Closing                      65*                   39              104
    Memorandums
    Number of OIG Hotline Calls                      149               176                 325
    Processed
    Allegations – Total Number                       210               278                 488
    Processed
    Referrals Made During the Period                120*               185                 305
    Cases Open at Start of Period                    183               177            183 Start
    Cases Opened in the Reporting                    40*                26                  66
    Period
    Cases Closed in the Reporting                        46                22               68
    Period
    Cases Open at the End of the                    177*               181             181 End
    Period




           Treasury Office of Inspector General Semiannual Report – September 2006                  31
                                S TATISTICAL S UMMARY


               OIG Activity                  10/01/05-             4/1/06 –         Period Totals
                                             03/31/06              9/30/06
      Inquiries Open at Start of Period                  76                   65            76 Start
      Inquiries Closed in the Reporting   (42+5 conversions)   (34+5 conversions)            (76+10
      Period                                             47*                  39         conversions)
                                                                                                  86
      Inquiries Opened in the Reporting
                                                          36                   60                 96
      Period
      Inquiries Open at the End of the                   65*                  86             86 End
      Period
      Judicial Actions
      Cases Referred for Prosecution                     36*                   28                64
      Cases Accepted for Prosecution                      10                   15                25
      Arrests                                            14*                   21                35
      Search Warrants                                     18                   13                31
      Indictments/Information                             2*                    2                 4
      Pleas                                               3*                   12                15
      Conviction by Trial                                  0                    2                 2
      Imprisonment (Months)                               83                  479               562
      Home Detention (Months)                              0                    6                 6
      Probation (Months)                                  72                   60               132
      Community Service (Hours)                            0                  360               360
      Administrative Sanctions
      Adverse Personnel Actions                          19*                  10                  29
      Contractor                                          2*                   0                   2
      Suspensions/Debarments
      Individual                                          1                    0                    1
      Suspensions/Debarments
      Oversight Activities
      Quality Assessment Reviews                          0                    1                   1
      Management Implication Reports                      0                    0                   0
      Fraud and Integrity Briefings                      11                    6                  17
      Monetary Benefits
      Fines                                       $10,100               $1,300             $11,400
      Restitution                                $188,500             $140,497            $328,997
      Recoveries                                       $0              $41,702             $41,702
      Settlements                                $384,795                   $0            $384,795
      Total Monetary Benefits                    $583,395             $183,499            $766,894

     *Numbers amended from the last reporting period, reflecting increases or decreases in data
     counts, are due to receipt of actions or changes after the reporting deadline.




32        Treasury Office of Inspector General Semiannual Report – September 2006
                              S TATISTICAL S UMMARY

Significant Unimplemented Recommendations
For Reports Issued Prior to September 30, 2005

 Number         Date   Report Title and Recommendation Summary

OIG-02-015     9/02    INFORMATION TECHNOLOGY: Treasury’s Planning, Management, and
                       Implementation of a Smart Card and Public Key Infrastructure (PKI) Needs
                       Improvement
                       The CIO should ensure that Treasury: (1) establishes a Treasury program to
                       effectively manage smart cards and PKI; (2) develops a program plan
                       defining roles and responsibilities, and milestones and resources needed for
                       smart card and PKI initiatives; (3) plans for adequate staffing of employees
                       to support smart card and PKI infrastructure as enterprise architecture;
                       (4) uses another hard token as an interim security measure along with smart
                       cards to provide strong two-factor authentication for digital certificates; and
                       (5) establishes appropriate record management controls for general,
                       sensitive, and secret information related to the Treasury smart card and PKI
                       infrastructure. (5 recommendations)


OIG-03-007     10/02 INFORMATION TECHNOLOGY: Controls Over FinCEN's Law Enforcement
                     Data Need Improvement
                     The FinCEN Director should establish a formal process for approving,
                     transmitting, and maintaining system access authorization forms to reduce
                     the risks associated with granting excessive or unauthorized access
                     privileges, alterations, misunderstandings, and mishandled forms.
                     (1 recommendation)


OIG-03-038     12/02 PROTECTING THE PUBLIC: Treasury Departmental Offices' Control Over
                     Computers Needs To Be Improved
                     DO should re-evaluate the method for reporting lost or stolen computers to
                     ensure all losses are reported to the proper authorities. This should include
                     periodic reconciliations between the CIO, Treasury Office of Security and
                     Critical Infrastructure Protection, and the OIG Office of Investigations.
                     (1 recommendation)


OIG-04-022     2/04    Management Letter for Fiscal Year 2003 Audit of the Department of the
                       Treasury Financial Statements
                       The Department should research and determine whether component
                       reporting entities reporting on a basis other than Federal Generally Accepted
                       Accounting Principles (GAAP) are required to do so by statute; that all
                       reporting entities within the Department prepare their financial statements in
                       accordance with Federal GAAP; and entities that are statutorily required to
                       report on a basis of accounting other than Federal GAAP provide
                       supplemental information in their annual reports that meets the reporting
                       requirements of Federal GAAP, to include a Management Discussion and
                       Analyses. (1 recommendation)


             Treasury Office of Inspector General Semiannual Report – September 2006                33
                             S TATISTICAL S UMMARY

OIG-04-035     6/04   GENERAL MANAGEMENT: Controls Over Security Need to be Improved at
                       the Bureau of Engraving and Printing
                      The Bureau of Engraving and Printing Director should complete plans for its
                      Integrated Security Systems and install its security upgrade systems
                      expeditiously. (1 recommendation)


OIG-05-002     10/04 MANUFACTURING OPERATIONS: Mint’s Standard A-76 Competition Study
                     for the Preparation of Ready-to-Coin Planchets Is Delayed and Requires
                     Significant Action to Complete
                     The Mint Director should ensure that the required justification is prepared
                     and the determination to provide or not provide Government Furnished
                     Property is approved by the Assistant Secretary of Management and Chief
                     Financial Officer. This should be accomplished before any future drafts of the
                     performance work statement and the final solicitation are published.
                     (1 recommendation)


OIG-05-032     3/05   TERRORIST FINANCING/MONEY LAUNDERING: Office of Terrorist Financing
                      and Financial Crimes Needs to Refine Measures for Its Performance Budget
                      and Implement a Data Collection and Reporting System
                      The Assistant Secretary for Terrorist Financing should ensure that TFFC
                      (1) implements the recently proposed performance measures, adjusted as
                      appropriate based on planned discussions with OMB, and include the
                      measures in the Department’s fiscal year 2006 budget submission;
                      (2) implements routine data collection and reporting procedures to help
                      manage its operation and report on its performance measures; (3) creates a
                      mechanism that will allow the office to regularly gather reliable data for
                      organizations outside of Treasury; and (4) develops methods to assess the
                      completeness and reliability of its performance measurement data. (4
                      recommendations)


OIG-05-035     4/05   TBARR: Cost of Employee Move Delays During Main Treasury Building
                      Renovation Could Not Be Determined
                      The Assistant Secretary for Management and Chief Financial Officer should
                      implement procedures and maintain documentation supporting changes and
                      accountability/responsibility for planned future moves associated with the
                      Treasury Building and Annex Repair and Restoration (TBARR) Project. Such
                      changes should be monitored to ensure that changes are appropriate and
                      action taken as necessary so that the changes do not impact project
                      completion and cost. Similar procedures and records should be maintained
                      for any renovation of the Treasury Annex building, if funded.
                      (1 recommendation)




34           Treasury Office of Inspector General Semiannual Report – September 2006
                              S TATISTICAL S UMMARY

OIG-05-043     8/05   INFORMATION TECHNOLOGY: Effective Security Controls Needed to
                      Mitigate Critical Vulnerabilities in Departmental Offices’ Networked
                      Information Systems
                      Due to the sensitive nature of the findings and recommendations, we
                      designated the report Limited Official Use. Four recommendations in the
                      report have not been implemented.



This list of OIG audit reports with unimplemented recommendations is based on
information in Treasury’s automated audit recommendation tracking system, which is
maintained by Treasury management officials.



Summary of Instances Where Information Was Refused
April 1, 2006, through September 30, 2006

There were no such instances during this period.



Listing of Audit and Evaluation Reports Issued
April 1, 2006 through September 30, 2006

Financial Audits and Attestation Engagements

Report On Controls Placed In Operation and Tests of Operating Effectiveness for the Bureau of the
Public Debt's Administrative Resource Center for the Period July 1, 2005 to June 30, 2006,
OIG-06-035, 8/23/2006

Report on Controls Placed in Operation and Tests of Operating Effectiveness for the Bureau of the
Public Debt's Trust Fund Management Branch for the Period August 1, 2005 to July 31, 2006,
OIG-06-038, 9/13/2006

Report on Controls Placed in Operation and Tests of Operating Effectiveness for the Bureau of the
Public Debt's Federal Investments Branch for the Period August 1, 2005 to July 31, 2006,
OIG-06-039, 9/13/2006

Information Technology Audits and Evaluations

INFORMATION TECHNOLOGY: Effective Security Controls Needed to Mitigate Critical Vulnerabilities
in the Office of the Comptroller of the Currency's Networked Information Systems, OIG-06-040,
9/14/2006 (Limited Official Use)

INFORMATION TECHNOLOGY: The OCC Disaster Recovery Exercise Was Successful, OIG-06-041,
9/19/2006 (Limited Official Use)

INFORMATION TECHNOLOGY: OCC Disaster Recovery Procedures Need to be Improved, OIG-06-
042, 9/19/2006 (Limited Official Use)

             Treasury Office of Inspector General Semiannual Report – September 2006            35
                              S TATISTICAL S UMMARY

INFORMATION TECHNOLOGY: Fiscal Year 2006 Evaluation of Treasury’s FISMA Implementation for
Its Intelligence Program, OIG-CA-06-004, 8/1/2006 (Classified)

INFORMATION TECHNOLOGY: Fiscal Year 2006 Evaluation of Treasury's FISMA Implementation for
Its Non-Intelligence National Security Systems, OIG-CA-06-005, 9/26/2006 (Limited Official Use)

INFORMATION TECHNOLOGY: 2006 Evaluation of Treasury's FISMA Implementation,
OIG-CA-06-008, 9/29/2006

Performance Audits

TERRORIST FINANCING/MONEY LAUNDERING: FinCEN Has Taken Steps to Better Analyze Bank
Secrecy Act Data But Challenges Remain, OIG-06-030, 5/18/2006

FOREIGN ASSETS CONTROL: Assessing OCC's Examination of OFAC Compliance Was Hampered
by Limited Documentation, OIG-06-033, 7/31/2006

BANK SECRECY ACT: OCC Did Not Take Formal Enforcement Action Against Wells Fargo Bank for
Significant BSA Deficiencies, OIG-06-34, 8/18/2006

MANUFACTURING OPERATIONS: The Mint Needs to Determine Whether Its Long-Delayed A-76
Competition for Coin Blank Production Should Be Continued, OIG-06-036, 8/28/2006

REVENUE COLLECTION: TTB's Revenue Protection Audits Target the Largest Taxpayers,
OIG-06-043, 9/26/2006

FOREIGN ASSETS CONTROL: Assessing OTS's Examination of OFAC Compliance Was Hampered
by Limited Documentation, OIG-06-044, 9/26/2006

OCC: Allegations Regarding Supervision of National Family Bank, OIG-06-045, 9/27/2006

Supervised Contract Audits

CONTRACT AUDIT: Audit Report on Technical Graphics, Inc. Fixed Price Indefinite
Delivery/Indefinite Quantity Proposal for NCD and NezGen Security Thread Substrate, Solicitation
BEP-06-0001, OIG-06-037, 8/28/2006, $5,566,577 Q




36          Treasury Office of Inspector General Semiannual Report – September 2006
                                    S TATISTICAL S UMMARY

Audit Reports Issued with Questioned Costs
April 1, 2006, through September 30, 2006

                          Category                                                    Total
                                                                 No. of        Questioned            Unsupported
                                                                Reports          Costs                  Costs
    For which no management decision had been                             0              0               0
    made by beginning of reporting period
    Which were issued during the reporting period                         1    $5,566,577                 0
    Subtotals                                                             1    $5,566,577                 0
    For which a management decision was made                              0                 0             0
    during the reporting period

             dollar value of disallowed costs                             0                 0             0
             dollar value of costs not disallowed                         0                 0             0
    For which no management decision had been                             1    $5,566,577                 0
    made by the end of the reporting period
        For which no management decision was                              0                 0             0
        made within 6 months of issuance


    The above audit was performed by the Defense Contract Audit Agency under our supervision. A “Questioned
    Cost” denotes that one or more of the following three situations exist: (1) an alleged violation of a provision of a
    law, regulation, contract, grant, cooperative agreement, other agreement or document governing the expenditure
    of funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate documentation; or
    (3) a finding that the expenditure of funds for the intended purpose is unnecessary or unreasonable.




Audit Reports Issued with Recommendations that
Funds be Put to Better Use
April 1, 2006, through September 30, 2006

At the beginning of the period, there were no audit reports from prior periods pending a
management decision on recommendations that funds be put to better use. There were
also no audit reports issued during this period with recommendations that funds be put to
better use.



Previously Issued Audit Reports Pending Management Decisions (Over Six Months)
As of September 30, 2006

There are no audit reports issued before this semiannual reporting period that are pending a
management decision.




             Treasury Office of Inspector General Semiannual Report – September 2006                                       37
                           S TATISTICAL S UMMARY

Significant Revised Management Decisions
April 1, 2006, to September 30, 2006

There were no significant revised management decisions during the period.


Significant Disagreed Management Decisions
April 1, 2006, to September 30, 2006

There were no management decisions this period with which the Inspector General was in
disagreement.




38         Treasury Office of Inspector General Semiannual Report – September 2006
            REFERENCE TO THE INSPECTOR GENERAL ACT




   Reference                                      Requirement                             Page
Section 4(a)(2)      Review of legislation and regulations                                 31
Section 5(a)(1)      Significant problems, abuses, and deficiencies                       8-24
Section 5(a)(2)      Recommendations with respect to significant problems, abuses, and    8-24
                     deficiencies
Section 5(a)(3)      Significant unimplemented recommendations described in previous      33-35
                     semi-annual reports
Section   5(a)(4)    Matters referred to prosecutive authorities                           32
Section   5(a)(5)    Summary of instances where information was refused                    35
Section   5(a)(6)    List of audit reports                                                35-36
Section   5(a)(7)    Summary of significant reports                                       8-24
Section   5(a)(8)    Audit Reports with questioned costs                                   37
Section   5(a)(9)    Recommendations that funds be put to better use                       37
Section   5(a)(10)   Summary of audit reports issued before the beginning of the           37
                     reporting period for which no management decision has been made
Section 5(a)(11)     Significant revised management decisions made during the reporting    38
                     period
Section 5(a)(12)     Management decisions with which the Inspector General is in           38
                     disagreement
Section 5(a)(13)     Instances of unresolved FFMIA non-compliance                          9
Section 5(d)         Serious or flagrant problems, abuses or deficiencies                 N/A
Section 6(b)(2)      Report to Secretary when information or assistance is unreasonably   N/A
                     refused




          Treasury Office of Inspector General Semiannual Report – September 2006                 39
                                      A CRONYMS


AML                      Anti-Money Laundering
BAU                      Blanking, Annealing, and Upsetting
BEP                      Bureau of Engraving and Printing
Board                    IGATI Curriculum Review Board
BPD                      Bureau of the Public Debt
BSA                      Bank Secrecy Act
CDFI Fund                Community Development Financial Institutions Fund
CFO                      Chief Financial Officer
CIO                      Chief Information Officer
COOP                     Continuity of Operations
DC                       District of Columbia
DO                       Departmental Offices
DPW                      Dubai Ports World
DRE                      Disaster Recovery Exercise
ECIE                     Executive Council on Integrity and Efficiency
ESF                      Exchange Stabilization Fund
FBI                      Federal Bureau of Investigation
FC 06                    Forward Challenge 2006
FECA                     Federal Employees’ Compensation Act
FEMA                     Federal Emergency Management Agency
FFB                      Federal Financing Bank
FFMIA                    Federal Financial Management Improvement Act of 1996
FinCEN                   Financial Crimes Enforcement Network
FISMA                    Federal Information Security Management Act of 2002
FMS                      Financial Management Service
FTE                      Full-Time Equivalent
GAAP                     Generally Accepted Accounting Principles
GMRA                     Government Management Reform Act of 1994
GSA                      General Services Administration
Hamilton                 Hamilton Bank
IG                       Inspector General
IGATI                    Inspectors General Auditor Training Institute
IPA                      Independent Public Accountant
IRS                      Internal Revenue Service
IRS-CI                   IRS Criminal Investigation
MCA                      Managerial Cost Accounting
Mint                     United States Mint
MOU                      Memorandum of Understanding
OCC                      Office of the Comptroller of the Currency
OFAC                     Office of Foreign Assets Control
OIA                      Office of Intelligence and Analysis
OIG                      Office of Inspector General
OMB                      Office of Management and Budget
OTA                      Office of Technical Assistance


40          Treasury Office of Inspector General Semiannual Report – September 2006
                                     A CRONYMS

OTS                     Office of Thrift Supervision
PCIE                    President’s Council on Integrity and Efficiency
PKI                     Public Key Infrastructure
PWS                     Performance Work Statement
SAR                     Suspicious Activity Report
SSA                     Social Security Administration
TAD                     Tax Audit Division
TBARR                   Treasury Building and Annex Repair and Restoration
TCE                     Treasury Communications Enterprise
TEOAF                   Treasury Executive Office for Asset Forfeiture
TFF                     Treasury Forfeiture Fund
TFFC                    Office of Terrorist Financing and Financial Crime
TFI                     Office of Terrorism and Financial Intelligence
TIGTA                   Treasury Inspector General for Tax Administration
Treasury                Department of the Treasury
TTB                     Alcohol and Tobacco Tax and Trade Bureau
USC                     United States Code
WCF                     Western Currency Facility
Web EFDS                Web-based Electronic Fund Detection System
Wells                   Wells Fargo Bank
WSRC                    Washington Supervision Review Committee




           Treasury Office of Inspector General Semiannual Report – September 2006   41
                      This Page Is Intentionally Left Blank




42   Treasury Office of Inspector General Semiannual Report – September 2006
 The Treasury Building in Washington, DC, is a National Historic Landmark, and has
been located at the same site next to the White House since the federal government
was moved from Philadelphia to the capital city in 1800. The current building began
 construction in 1836, replacing an earlier structure that had been destroyed by fire
three years earlier. Architect Robert Mills designed the neo-classical building. As the
   Department of the Treasury expanded, the south, west, and north wings were
   added to the original Mills wing from 1855 to 1869. Pictured is a view of the
      Washington Monument from the south portico of the Treasury Building.


                             Source: Office of the Curator
 contact us



Headquarters
Office of Inspector General
1500 Pennsylvania Avenue, N.W.,
Room 4436
Washington, D.C. 20220
Phone: (202) 622-1090;
Fax: (202) 622-2151

Office of Audit
740 15th Street, N.W., Suite 600
Washington, D.C. 20220
Phone: (202) 927-5400;
Fax: (202) 927-5379

Office of Investigations
740 15th Street, N.W., Suite 500
Washington, D.C. 20220
Phone: (202) 927-5260;
Fax: (202) 927-5421

Office of Counsel
740 15th Street, N.W., Suite 510
Washington, D.C. 20220
Phone: (202) 927-0650;
Fax: (202) 927-5418

Office of Management
740 15th Street, N.W., Suite 510
Washington, D.C. 20220
Phone: (202) 927-5200;
Fax: (202) 927-6492

Eastern Field Audit Office
                                   Treasury OIG Hotline
408 Atlantic Avenue, Room 330      Call Toll Free: 1.800.359.3898
Boston, Massachusetts 02110-3350
Phone: (617) 223-8640;
Fax (617) 223-8651                 Treasury OIG Web Page

                                   OIG reports and other information are now
                                   available via the Internet. The address is
                                   http://www.treas.gov/offices/inspector-general
